HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in the State of South Carolina,"(A-04-03-06011)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in the State of South Carolina,"
(A-04-03-06011)
August 29, 2003
Complete
Text of Report is available in PDF format (1.18 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the South Carolina Department of Health and Human Services did
not have adequate accounting procedures and internal controls with regard to the Medicaid Drug Rebate Program as of June
30, 2002.  However, the State had addressed the majority of the problems we initially encountered and noticeably enhanced
its ability to monitor and report drug rebate information as of December 31, 2002.  Nevertheless, improvements over
drug rebate accountability are still needed in the following areas: (1) interest accrual and collections, and (2) data
integrity, including records retention.  The State agreed with our findings and recommendations.